Appendix-A

(Decision of State Court of Appeals)

i

Court of Appeals, State of Michigan
ORDER

People of MI v Terrence Lavaron Thomas

Mark J. Cavanagh
Presiding Judge

Docket No.

353523

Deborah A. Servitto

LC No.

2015-253748-FC

Elizabeth L. Gleicher
Judges

The motion to waive fees is GRANTED for this case only.
The delayed application for leave to appeal is DENIED because defendant has failed to
establish that the trial court erred in denying the motion for relief from judgment.

Oa
residing Judge

<T

A J

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

*

JUN 1 2 2020
Date

_i_

Appendix-B

(Decision of State Trial Court)

2

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiffs,
v

Case No: 15-253748-FC
Hon. Hala Jarbou

TERRENCE LAVARON THOMAS
Defendant.
OPINION AND ORDER
This matter is before the Court on Defendant’s motion for relief from judgment
under MCR 6.501 et seq, as well as Defendant’s motion to appoint counsel for
proceedings under MCR 6.501 et seq. The prosecutor has not filed a response. This
Court has determined that an evidentiary hearing is not required, and that this Court's
deliberation would not be significantly aided by oral argument. MCR 6.508(B).
Defendant’s motion for relief from judgment is denied for the reasons explained below.

BACKGROUND
Defendant pleaded no contest on February 16, 2016, to the following charges: 1)
assault with intent to murder for which Defendant was sentenced to 15 to 30 years; 2)
felonious assault for which Defendant was sentenced to 4 to 15 years; and 3) carrying a
dangerous weapon with unlawful intent for which Defendant was sentenced to 4 years 10
months to 30 years. Defendant pled pursuant to a sentence agreement with the
prosecutor that the prosecutor would dismiss the super habitual charges, (which carried
a mandatory minimum sentence of 25 years) in exchange for Defendant pleading as a
4

regular fourth-habitual offender (which did not mandate any minimum sentence but set
his maximum sentence at Life). Defendant also agreed pursuant to the sentence
agreement he made with the prosecutor to a minimum sentence of 15 years. The court
agreed to a cap of the maximum sentence at 30 years.
Following his plea, Defendant appealed to the Court of Appeals, which denied
leave to appeal in a February 16, 2017, order (Docket No. 334776). Defendant then
appealed to the Michigan Supreme Court, which denied leave to appeal on July 31 2017,
because the court was not persuaded "that the questions presented should be reviewed."
People v Thomas, 500 Mich 1062; 898 NW2d 587 (2017).
Defendant filed the instant motion on November 27, 2019, requesting relief from
judgment and a new trial.
Defendant raises the following issues in the instant motion: 1) ineffective
assistance of counsel when Defendant’s counsel failed to contest the sufficiency of
evidence that Mr. Shackleford was assaulted with a deadly weapon by Defendant; 2)
ineffective assistance of counsel when Defendant's counsel did not address Defendant’s
requests to withdraw his plea; 3) due process violation where Defendant was sentenced
on the basis of inaccurate information; 4) Defendant's right to a preliminary exam within
fourteen days was violated; and, 5) Defendant’s right to a speedy trial was violated.1
STANDARD OF REVIEW
“Post-conviction relief is provided for the extraordinary case in which a conviction
constitutes a miscarriage of justice.” People v Reed, 449 Mich 375, 381 (1995) (Boyle, J).
Defendant has the burden of establishing entitlement to the relief requested. This Court

1 Defendant’s Motion for Relief from Judgment, pg 9.

2

1

may not grant a motion for relief from judgment that alleges grounds for relief that were
decided against the defendant in a prior appeal or MCR 6.500 motion, unless the
defendant establishes a retroactive change in the law that has undermined the prior
decision. MCR 6.508(D)(2). Additionally, this Court may not grant a motion for relief from
judgment that alleges grounds for relief, other than jurisdictional defects, that could have

been

raised on appeal or in a prior motion, unless the defendant demonstrates both good

cause for failure to raise the issue and actual prejudice from the alleged irregularities that
support the claim of relief. MCR 6.508(D)(3).

I

“Good cause" may be established by proving the ineffective assistance of appellate
counsel or by showing that some external factor prevented counsel from previously
raising the issue. MCR 6.508(D)(3)(a); Reed, 449 Mich at 378. To demonstrate "actual
prejudice,” in a plea of nolo contendere, a defendant must show that the "defect in the
proceedings was

such that it renders the plea an involuntary one to the degree that it

would be manifestly unjust to allow the conviction to stand," or that the irregularity was sc
offensive to the maintenance of a sound judicial process that the conviction should not be
allowed to stand regardless of its effect on

the outcome of the case. MCR

6.508(D)(3)(b)(ii) and (iii). In the case of a challenge to the sentence, actual prejudice
means that the sentence

is invalid. MCR 6.508(D)(3)(b)(iv). If either “good cause” or

“actual prejudice" is lacking, this Court need not address the other prong before denying
the motion. People v Jackson, 465 Mich 390,405-406 (2001).
DISCUSSION
This Court addresses in order the issues in Defendant's motion. "In the context of
pleas,

■a defendant must show the outcome of the plea process would have been different

with competent advice.'" People v Pennington, 323 Mich App 452, 461; 917 NW2d 720
(2018), quoting Lafler v Cooper, 566 US 156, 163; 132 S Ct 1376; 182 L Ed 2d 398
(2012). Mr. Shackleford was one of two victims of Defendant’s assault. Mr. Shackleford
attempted to get in between Defendant and the other victim that Defendant was stabbing.
When Mr. Shackleford put his hand between them, Defendant cut Mr. Shackleford’s hand
while he was trying to stab or strike the other victim.
Defendant argues that had. his appointed counsel met with him earlier and
thoroughly investigated the facts, he would not have felt pressured to accept the plea
deal. From

Defendant’s motion, it. is unclear how the plea proceedings would have been

different if defense counsel would have spent more time investigating the case. The issue
concerning whether Mr. Shackleford could be considered a victim due to transferred intent
was a legal issue that was addressed during the preliminary exam.
Defendant appears to allude to the fact that having two victims increased the
offense variable 9 score for the assault with intent to commit murder charge. According
to Defendant, that scoring increased his minimum sentence guidelines to a mandatory 25
years

, which was then used by the prosecution to get Defendant to agree to the plea deal

enumerated above.2 Nothing in the record, however, persuades this Court that
Defendant's legal position is meritorious. Defendant has cited no law and the facts do not
support that a different outcome would have been reached in the plea proceeding .The
25-year mandatory minimum is determined by the prosecutor filing a "super” habitual
pursuant to MCL 769.12 and 769.13. A super habitual status is determined by past
convictions, not offense variables.

2 March 14, 2016 Sentencing Hearing Transcript, pgs 15-23.
4

Defendant next contends that his counsel provided ineffective assistance when he
did not support or address Defendant’s repeated attempts to withdraw his plea. Defendant
attempted to withdraw his plea several times during his sentencing.3 However, Defendant
was sentenced according to a sentence agreement he made with the prosecutor. In
People v Wilhite, 240 Mich App 587, 594; 618 NW2d 587 (2000), the Court of Appeals,
citing MCR 6.310(B), held that a defendant, prior to sentencing, may only withdraw a plea
made in accordance with a sentence agreement with the prosecutor if the defendant can
articulate a "fair and just reason for withdrawing the plea;” that withdrawal of the plea was
in the “interest of justice;” and, if the defendant can prove that “withdrawing the plea would
not substantially prejudice the prosecutor because of reliance on the plea." A defendant
can also withdraw the plea if they show that there was error in the plea proceeding. Id.
The record is clear that Defendant argued none of the above but rather argued
that his minimum sentence should be lower according to the guidelines, despite pleading
under a sentence agreement with the prosecutor. Thus, Defendant did not demonstrate
a fair and just reason to allow the withdrawal of his plea.
Defendant’s next argument is that he was sentenced on the basis of inaccurate
information because the sentence agreement provided a minimum of 15 years and
Defendant claims that his true low-end of the sentencing guidelines started at 11.25
years. The minimum 15 years in the sentence agreement was offered in exchange for the
prosecutor dismissing the "super” habitual, which would have raised Defendant's
mandatory minimum to 25 years. Defendant ignores this fact and only focuses on the
minimum absent any habitual offender sentence enhancement, claiming 11.25 years is

3 Id.

5

I

the true minimum. Thus, the minimum of 11.25 years would not have been applicable in
Defendant’s case.
Defendant’s fourth argument is that his right to receive a preliminary exam within
fourteen days of his arraignment was violated. However, the first time any objection to the
timeliness of the preliminary exam was raised was in Defendant’s plea and sentencing
hearings. If a defendant does not motion prior to commencement of the preliminary exam
to challenge the timeliness of the exam, the right to a dismissal without prejudice remedy
is lost. People v Crawford, 429 Mich 151,161; 414 NW2d 360 (1987). The record shows
no indication that Defendant challenged the timeliness of the preliminary exam prior to its
commencement, so Defendant’s right to seek dismissal without prejudice was waived.
Defendant finally argues that his right to a speedy trial was violated because his
trial date did not occur within 180 days of the commencement of proceedings against him.
Defendant relies on MCR 6.004. Contrary to Defendant’s assertion, the 180-day rule in
MCR 6.004, does not apply to the length of time the prosecutor has to commence trial.
Rather, MCR 6.004 applies to the length of time that the prosecutor has to bring charges
against an incarcerated inmate upon notice of incarceration. People v Lown, 488 Mich
242; 794 NW2d 9 (2011). A court considers the following factors when determining if a
defendant’s right to a speedy trial has been violated: “(1) the length of the delay, (2) the
reason for delay, (3) the defendant's assertion of the right, and (4) the prejudice to the
defendant." People v Williams, 475 Mich 245, 261-262; 716 NW2d 208 (2006). There is
not a fixed number of days by which a defendant’s trial must commence. People v Rivera,
301 Mich App 188,193; 835 NW2d 464 (2013). If the delay is more than 18 months then

6

prejudice to the defendant is presumed, but if the delay is less than 18 months, the
defendant must prove they suffered prejudice. Id.
By Defendant’s count, the proceedings from arrest to judgment totaled 214 days.
This is well under 18-months, so Defendant must prove prejudice. Defendant’s argument
regarding prejudice is simply that the length of time he was incarcerated pressured him
to accept a plea deal. Defendant makes no argument that the length of time affected his
ability to defend himself. Williams, 475 Mich at 264-265. The record also reflects that
Defendant changed his court-appointed counsel twice. This understandably caused
delay. Thus, Defendant cannot establish that he was prejudiced in his right to a speedy
trial.
THEREFORE, IT IS HEREBY ORDERED that Defendant’s Motion for Relief from
Judgment and Motion for New Trial is DENIED.
IT IS FURTHER ORDERED that Defendant's Motion for Appointment of Counsel
is denied as moot.
IT IS SO ORDERED.

\x$C’

°[ 2-Q

Dated:

HoOfala-tJarbou

C i rcuiTSeujUudq e )

Proof of Servlco
The utxtareigtiBd cenffat that the foregoing was saved
upon the parties oradomayts) In the above cause by
depositing a copy in the U.S. Mall, postage prepaid In an
envelope addressed to same on l f^/ZOZO

A TRUE COPY

(j/MAAA

lisa brown

Judicial LawcierfcMucMal StaffAHni

kl&d County ClertU Register of Deeds

Oak
By

7

Appendix-C

(Decision of State Supreme Court Denying Review)

3

Order

Michigan Supreme Court
Lansing, Michigan

February 2, 2021

Bridget M. McCormack,
Chief Justice

Brian K. Zahra
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,

161819

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

Justices

SC: 161819
COA: 353523
Oakland CC: 2015-253748-FC

v
TERRENCE LAVARON THOMAS,
Defendant-Appellant.

On order of the Court, the application for leave to appeal the June 12, 2020 order of
the Court of Appeals is considered, and it is DENIED, because the defendant has failed to
meet the burden of establishing entitlement to relief under MCR 6.508(D).

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
February 2, 2021
to 125

Clerk

Additional material
from this filing is
available in the
Clerk's Office.

